Kyle D. Hawkins
Solicitor General

(512) 936-1700
kyle.hawkins@oag.texas.gov

October 3, 2019
Via E-File and Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

Alabama-Coushatta Tribe of Tex. v. Texas, No. 19-403
Motion to Extend Time to File Response to Petition for Writ of
Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent the State of Texas respectfully
moves for an extension of the time for filing a response to the petition for writ of
certiorari in Alabama-Coushatta Tribe of Texas v. Texas, No. 19-403.
Petitioner filed a petition for writ of certiorari on September 23, 2019, and the State
of Texas’s response is currently due on October 25, 2019. A 45-day extension of time
is needed because of the press of business from numerous complex matters with
deadlines near the current deadline, which require significant time and attention
from the undersigned counsel and other counsel assisting with this matter, including:
• City of Austin v. Paxton, No. 18-50646 (5th Cir.): Oral argument scheduled for
October 7.
• Freedom from Religion Foundation, Inc. v. Abbott, No. 18-50610 (5th Cir.): Oral
argument scheduled for October 10.
• Banister v. Davis, No. 18-6943 (S. Ct.): Merits response brief due on October
18.
P os t Of fic e B ox 12548 , Aust in , Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt o r n eygen era l. go v

Scott S. Harris
October 3, 2019
Page 2
• In re Pardo, No. 19-0760 (Tex. S. Ct.): Response to CVSG due on October 18.
• Daves v. Dallas County, No. 18-11368 (5th Cir.): Oral argument scheduled for
November 4.
• Gibson v. Collier, No. 18-1586 (S. Ct.): Response brief due on November 6.
• Tex. Dep’t of Crim. Justice v. Rangel, No. 18-0721 (Tex. S. Ct.): Oral argument
scheduled for November 6.
No prejudice would arise from the requested extension, and Petitioner does not oppose this extension.
For the foregoing reasons, Respondent the State of Texas respectfully requests a 45day extension of the deadline for filing a response to the petition for writ of certiorari,
creating a new deadline of December 9, 2019.
Sincerely,
/s/ Kyle D. Hawkins
KYLE D. HAWKINS
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
kyle.hawkins@oag.texas.gov
Counsel for Respondent State of Texas
cc:

Allyson Ho (Counsel for Petitioner)

P os t Of fic e B ox 12548 , Aust in , Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt o r n eygen era l. go v

